Tw
I
2311 Douglas Street COCKLE s

E-Mail Address:
Omaha, Nebraska 68102-1214

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-975

CENTER FOR BIOLOGICAL DIVERSITY, ANIMAL
LEGAL DEFENSE FUND, DEFENDERS OF WILDLIFE,
AND SOUTHWEST ENVIRONMENTAL CENTER,
Petitioners,

v.

U.S. DEPARTMENT OF HOMELAND SECURITY
AND CHAD WOLF, ACTING SECRETARY OF THE
U.S. DEPARTMENT OF HOMELAND SECURITY,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
THE EQUAL VOICE NETWORK AND LA UNION DEL PUEBLO ENTERO IN SUPPORT OF
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(6), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 3976 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this Sth day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

ee hoo? Oudrav-h, Gl

Notary Public Affiant

 

39556
